No. ______
In the

Supreme Court of the United States
__________________
DANIEL K. HOLTZCLAW,
v.

Petitioner,

THE STATE OF OKLAHOMA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Oklahoma Court of Criminal Appeals

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
JAMES L. HANKINS
Counsel of Record
Timberbrooke Business Center
929 N.W. 164th Street
Edmond, Oklahoma 73013
(405) 753-4150
jameshankins@ocdw.com
Counsel for Petitioner

December 30, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
1.
DNA evidence played a central role in this sexual
assault case, in the form of a “match” between DNA
from a complaining witness and the major contributor
in DNA mixtures found on the fly of Petitioner’s pants.
This evidence was conveyed to the jury by state
forensic analyst Elaine Taylor. However, concerns over
Taylor’s personnel record arose while direct appeal was
pending, and the state appellate court remanded to the
district court which held a remarkable two-day hearing
in camera and ex parte on the matter. Although
defense counsel were excluded from this hearing, the
transcript and exhibits were made available to defense
counsel, but not to the defense expert DNA witness.
The prosecutor at trial misrepresented the DNA
evidence during closing arguments. The question
presented for review is:
What is the standard of materiality applicable in
assessing the prejudicial impact of potential
exculpatory evidence relating to the State’s chief
forensic expert which was obtained in a secret ex parte
hearing at which defense counsel were excluded
entirely, and thereafter precluded from sharing the
results of which with the defense DNA expert?
2.
This case stemmed from initial counts in one
incident involving alleged forcible oral sodomy and
procurement of lewd exhibition, but ballooned to a total
of thirty-six counts ranging from burglary in the first
degree to stalking to rape, alleged by thirteen different

ii
complaining witnesses against a police officer.
Petitioner has alleged improper joinder. The question
presented is:
Is there a constitutional limit on joinder of
complaining witnesses and counts?

iii
LIST OF DIRECTLY RELATED PROCEEDINGS
There are no proceedings that are directly related to
this case.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
LIST OF DIRECTLY RELATED PROCEEDINGS iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE FACTS. . . . . . . . . . . . . . . . . 3
REASON FOR GRANTING THE WRIT. . . . . . . . . . 9
I. THIS COURT SHOULD ACCEPT THIS CASE
IN ORDER TO ESTABLISH THE LEGAL
STANDARD
FOR
EXAMINING
PROSECUTORIAL MISREPRESENTATION
OF SCIENTIFIC EVIDENCE AT TRIAL,
ESPECIALLY IN A CASE INVOLVING A
SECRET HEARING ON DNA EVIDENCE
WHERE DEFENSE COUNSEL IS BOTH
EXCLUDED FROM ATTENDING AND ALSO
PRECLUDED FROM SHARING THE
TESTIMONY AND EXHIBITS WITH A
DEFENSE EXPERT. . . . . . . . . . . . . . . . . . . . . . . 9

v
II. THIS COURT SHOULD ACCEPT THIS CASE
IN ORDER TO ESTABLISH THE LEGAL
STANDARD FOR EXAMINING IMPROPER
JOINDER IN EXTREME CASES LIKE THIS
ONE WHERE THE STATE WAS ABLE TO
PRESENT TO THE JURY EVIDENCE AND
TESTIMONY
FROM
THIRTEEN
COMPLAINING WITNESSES ALLEGING
THIRTY-SIX CRIMINAL ACTS. . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
APPENDIX
Appendix A Opinion in the Court of Criminal
Appeals of the State of Oklahoma
(August 1, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Motion to Unseal
Proceedings in the Court of Criminal
Appeals of the State of Oklahoma
(June 14, 2018) . . . . . . . . . . . . . . App. 48
Appendix C Order Granting Motion to Unseal
Documents and Setting Briefing
Schedule in the Court of Criminal
Appeals of the State of Oklahoma
(June 8, 2018) . . . . . . . . . . . . . . . App. 52

vi
TABLE OF AUTHORITIES
CASES
Brady v. Maryland,
373 U.S. 83 (1963). . . . . . . . . . . . . . . . . . . . . 13, 14
Giglio v. United States,
405 U.S. 150 (1972). . . . . . . . . . . . . . . . . . . . 13, 14
Giminez v. Ochoa,
821 F.3d 1136 (9th Cir. 2016). . . . . . . . . . . . . . . 15
Han Tak Lee v. Houtzdale SCI,
798 F.3d 159 (3d Cir. 2015) . . . . . . . . . . . . . . . . 15
Holtzclaw v. State,
2019 OK CR 17, 448 P.3d 1134 . . . . . . . . . . . . 1, 2
Jones v. United States,
202 A.3d 1154 (D.C. 2019) . . . . . . . . . . . . . . 14, 15
Longus v. United States,
52 A.3d 836 (D.C. 2012) . . . . . . . . . . . . . . . . . . . 14
Napue v. Illinois,
360 U.S. 264 (1959). . . . . . . . . . . . . . . . . . . . 14, 15
Reed v. Texas,
No. 19-411 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Ross v. City of Owasso,
389 P.3d 396 (Okla. Civ. App. 2017) . . . . . . . . . 11
United States v. Ausby,
916 F.3d 1089 (D.C. Cir. 2019). . . . . . . . . . . . . . 14
United States v. Clayton,
450 F.2d 16 (1st Cir. 1971) . . . . . . . . . . . . . . 16, 17

vii
United States v. Pursley,
474 F.3d 757 (10th Cir. 2007). . . . . . . . . . . . . . . 19
United States v. Sudikoff,
36 F.Supp.2d 1196 (C.D. Cal. 1999). . . . . . . . . . 13
Zafiro v. United States,
506 U.S. 534 (1993). . . . . . . . . . . . . . . . . . . . 19, 20
CONSTITUTION AND STATUTES
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . 1
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . 1, 20
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
TO: The Honorable Chief Justice and Associate
Justices of the United States Supreme Court:
Daniel K. Holtzclaw petitions respectfully for a writ
of certiorari to review the judgment of the Oklahoma
Court of Criminal Appeals.
OPINION BELOW
The Oklahoma Court of Criminal Appeals issued a
published opinion filed August 1, 2019. See attached
Appendix “A” (Holtzclaw v. State, 2019 OK CR 17, 448
P.3d 1134).
JURISDICTION
The judgment of the Oklahoma Court of Criminal
Appeals was entered August 1, 2019. The jurisdiction
of this Court is invoked pursuant to 28 U.S.C.
§ 1254(1). Justice Sotomayor granted an extension of
time to file a Petition on October 28, 2019–extending
the deadline to December 29, 2019.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution, Amendment VI, provides,
in part:
In all criminal prosecutions, the accused shall
enjoy the right to...the assistance of counsel for
his defense.
United States Constitution, Amendment XIV, provides,
in part:
No state shall...deprive any person of life,
liberty, or property, without due process of law.

2
STATEMENT OF THE CASE
In 2014, the state of Oklahoma charged Holtzclaw
with eight counts of procuring lewd exhibition, ten
counts of sexual battery, seven counts of forcible oral
sodomy, six counts of first degree rape, two counts of
second degree rape by instrumentation, one count of
indecent exposure, one count of first degree burglary,
and one count of stalking.
The case was tried to a jury sitting in Oklahoma
City, Oklahoma, who acquitted Holtzclaw of eighteen
of the thirty-six counts, but convicted him of three
counts of procuring lewd exhibition, six counts of
sexual battery, four counts of forcible oral sodomy, four
counts of first degree rape, and one count of second
degree rape. The jury recommended punishment at
five years in prison for each of the procuring counts;
eight years in prison for each of the sexual battery
counts; sixteen years in prison for each of all but one of
the sodomy counts, twenty years on the remaining
sodomy count; thirty years in prison on each count of
first degree rape; and twelve years in prison on the
count of second degree rape.
On January 21, 2016, the trial judge sentenced
Holtzclaw in accordance with the recommendation of
the jury, and ordered all counts to run
consecutively–for an effective combined sentence of 263
years.
Holtzclaw appealed to the Oklahoma Court of
Criminal Appeals, which denied relief in a published
opinion filed August 1, 2019. See Holtzclaw v. State,
2019 OK CR 17, 448 P.3d 1134.

3
STATEMENT OF THE FACTS
Back in June, 2014, Daniel Holtzclaw was a police
officer on the Oklahoma City Police Department. He
was assigned to the Springlake Division which
patrolled a high crime area in the northeastern section
of the city. His regular shift during this time was
4:00 p.m.-2:00 a.m.
On June 18, 2014, Holtzclaw ended his shift at
2:00 a.m.. However, on his way home he spotted a
vehicle swerving and drifting within its lane, so he
pulled it over. He questioned the driver, J.L., but
concluded that there was no evidence of intoxication, so
he let her go and continued home.
Several hours later, J.L., as well as members of her
family, reported to other law enforcement that she had
been sexually assaulted by Holtzclaw during this traffic
stop.
A sex crimes detective from the police
department was called in to question J.L. A second
detective was also investigating similar allegations
against an unknown officer by another woman. T.M.,
one month prior; only after J.L. came forward did
detectives attempt to pin the allegations of T.M. on
Holtzclaw.
This is how the investigation began, and by the time
it was over, law enforcement had developed and
procured thirteen complaining witnesses who had
asserted sexually impropriety by Officer Holtzclaw. As
to J.L., the jury found that Holtzclaw had committed
the crimes of procuring lewd exhibition and forcible
oral sodomy, although the SANE kit came back

4
negative and she described her assailant as a short
man with blond hair.
However, the jury acquitted Holtzclaw of half the
counts with which he was charged, finding the
testimony and evidence insufficient, including
allegations made by S.H., who claimed that Holtzclaw
had assaulted her while she was in a hospital bed after
having been arrested on drug charges; allegations
made by C.R., who had told detectives initially that no
officer had been inappropriate with her except for a
black police officer who had exposed himself to her, but
then claimed later that Holtzclaw had contacted her as
she walked down the street and directed her to lift up
her shirt and expose her breasts; allegations by F.M.,
a crack addict who had smoked crack with another
complainant and who had claimed that Holtzclaw had
fondled her breast; allegations by T.M., who accused
Holtzclaw of forcing her to expose her breasts and of
coercing her into oral sex; and allegations by K.L, who
had accused Holtzclaw of oral sodomy, rape and forcing
her to expose her body to him.
Other allegations showed that the jury believed
some but not all of the claims. In the case of T.B., the
jury convicted Holtzclaw of sexual assault, but
acquitted him of burglary and stalking; as to R.G., a
prostitute and crack addict, the jury convicted
Holtzclaw of forcible oral sodomy, but acquitted him of
rape.
In one case, the jury believed allegations made by
S.E., even though she was unable to identify Holtzclaw
in court, and described him as a black man shorter
than her height of 5'11" and darker than her own skin

5
tone–when Holtzclaw is 6'1" tall, pale-skinned, and
Japanese-American.
Part of the State’s case involved DNA evidence as to
complaining witness A.G. A.G. had accused Holtzclaw
of stopping her as she walked down the street, taking
her to her mother’s home, and putting his hands on her
breasts and inside her vagina, and having sex with her
through the unzipped fly of his buckled uniform pants.
She also gave a DNA sample to police.
Law enforcement had obtained a DNA mixture from
at least three individuals, including at least one male
and a major contributor who was an “unknown female”
from the fly area of Holtzclaw’s pants, which were
collected as evidence when Holtzclaw was questioned
by police on the afternoon of June 18, 2014. The
unknown DNA profile on the fly of his pants turned out
to match the DNA of A.G. This was a contested part of
the case, since the police chemist, Elaine Taylor,
admitted that it was possible that the DNA of A.G.
could have been a “secondary transfer” via Holtzclaw’s
hands to the fly area of his pants after he had searched
her purse.
The DNA issue became more critical during closing
argument, when the prosecutor asserted that the
biological material found on the fly of the pants was
vaginal fluid–when there was no science to confirm
this, as a subsequent defense DNA expert has opined.
As the state appellate court summarized, the larger
investigation by law enforcement consisted of analyzing
police department records, including warrant check
logs, computer reports, computer dispatch records, and

6
the vehicle locator software on Holtzclaw’s patrol car as
to the time frames and locations of the accusations.
However, missing from the factual recitation by the
OCCA is the fact that detectives used Holtzclaw’s
police records to contact and solicit further complaining
witnesses. This was done in the case of ten of the
thirteen complainants through the police questioning
specifically African-American women with criminal
records who had been stopped or approached by
Holtzclaw. When detectives contacted more than forty
African-American women with drug and prostitution
histories and arrest warrants, detectives told these
women that police had “received a tip” that they were
“possibly sexually assaulted by an Oklahoma City
police officer” who “was a really bad guy.”
Thus, for the most part, there was no dispute that
Holtzclaw had contact with the women accusing him;
the dispute was whether he had ever committed sexual
crimes against them during his contact with them as a
police officer.
As outlined above, out of the thirteen female
complaining witnesses, the jury acquitted Holtzclaw of
all charges concerning five of them; acquitted him of
some charges as to two of the witnesses; and convicted
him of all charges involving six witnesses.
The state appellate court characterized the
testimony against Holtzclaw as a “pattern” whereby
Holtzclaw would conduct a traffic stop or stop the
women as they walked down the street, ask them about
contraband, and then he would make demands or
coerce them into sexual acts or conduct.

7
On direct appeal, Holtzclaw made various claims,
including improper joinder of the multitude of counts,
and a claim of ineffective assistance of counsel
involving counsel’s handling of the DNA evidence as to
complaining witness A.G.
The joinder issue is straightforward: the State was
allowed to present evidence from thirteen complaining
witnesses en masse concerning disparate acts of sexual
assault, creating a self-corroborating cascade of
testimony which reinforced its own credibility through
volume. This dynamic would have been absent had the
State been forced to try the allegations of each
complaining witness separately, as evidenced by the
fact that the jury acquitted Holtzclaw of exactly half
the counts; and there is evidence of a compromised
verdict because the jury convicted him of dubious
charges, e.g., J.L.’s SANE kit was negative; R.G.’s
chair, on which she had claimed to have wiped fluids
following oral sodomy, revealed the full DNA profile of
a male who was not Holtzclaw; S.E. who claimed that
her assailant was a short, black police officer; and
A.G.’s mother told a detective that her runaway teen
daughter had simply called the officer a “hot cop.”
The DNA issue is less so. As Holtzclaw sees it, the
DNA evidence was the lynchpin of the State’s case, and
the only independent evidence proffered by the
prosecution in an attempt to substantiate any of the
claims; and even this evidence was misrepresented by
the State’s forensic analyst. Complicating this issue is
the fact that the Oklahoma Court of Criminal Appeals
remanded the matter to the district court, which held
an in camera and ex parte hearing over two days from

8
June 26 & 27, 2017, the subject of which was a
purported internal Oklahoma City Police Department
review of the trial testimony and personnel records of
Elaine Taylor–the State’s forensic analyst and the
State witness who testified in front of the jury about
the DNA findings in this case.
The internal review of Taylor’s testimony was
conducted after her retirement because of questions
raised by appellate counsel about her trial testimony.
The District Attorney and the Office of the Attorney
General had access to information related to
Taylor–and thus knew its contents before any in
camera inspection could be made. Notably, the State
conceded at the outset that Holtzclaw was entitled to
disclosure of at least a portion of the information
related to Taylor, and the prosecutor who had
misrepresented the DNA evidence in his closing
argument was allowed to question witnesses at the ex
parte hearing.
Yet, in an Order filed June 8, 2018, in the
Oklahoma Court of Criminal Appeals, the appellate
court concluded that it was error for the district court
to hold the hearing ex parte and exclude defense
counsel for Holtzclaw, but that this legal error was
harmless. Appx. B at 3.
The OCCA eventually allowed Holtzclaw’s lawyers
to review the ex parte hearing transcripts and exhibits,
but refused to allow his lawyers to share the secret
hearing transcripts or exhibits with a third
party–namely, the defense DNA expert, Dr. Michael
Spence. Defense counsel sought to share these records

9
with Dr. Spence so that he could analyze them to
critique the conclusions of Dr. Taylor. Appx. C at 1-2.
Thus, this case involves joinder of charges with a
disparity of evidence caused by misrepresented DNA
evidence, but also an unusual, secret hearing involving
the State’s forensic expert witness at which defense
counsel was excluded, and for which the OCCA found
error but deemed it harmless.
REASON FOR GRANTING THE WRIT
I.
THIS COURT SHOULD ACCEPT THIS
CASE IN ORDER TO ESTABLISH THE
LEGAL STANDARD FOR EXAMINING
PROSECUTORIAL MISREPRESENTATION
OF SCIENTIFIC EVIDENCE AT TRIAL,
ESPECIALLY IN A CASE INVOLVING A
SECRET HEARING ON DNA EVIDENCE
WHERE DEFENSE COUNSEL IS BOTH
EXCLUDED FROM ATTENDING AND
ALSO PRECLUDED FROM SHARING THE
TESTIMONY AND EXHIBITS WITH A
DEFENSE EXPERT.
This case raises an issue of national importance
regarding incompetent government forensic analysts
and non-disclosure of faulty DNA analysis and
testimony, all under the shroud of a secret hearing
attended by government lawyers where defense
lawyers were excluded.
The secret hearing in this case was held on June 26
& 27, 2017, in the district court of Oklahoma County.

10
It concerned an internal Oklahoma City Police
Department review of Elaine Taylor, the State’s chief
forensic expert who testified at to the DNA evidence in
this case. Defense counsel was excluded.
After this secret hearing was reported in the local
press, counsel for Holtzclaw complained in the
Oklahoma Court of Criminal Appeals, seeking an order
to direct the district court, after the hearing had
concluded, to reserve entry of its Findings of Fact and
Conclusions of Law until defense counsel had an
opportunity to cross-examine witnesses who testified at
the hearing, and to make argument regarding that
testimony and the material at issue in the district
court. Appx. B at 3.
The OCCA concluded that “Defense counsel should
have had the opportunity to participate fully in that in
camera hearing, but counsel’s absence was harmless
beyond a reasonable doubt. Id. Just six days later, the
OCCA issued another Order, addressing the defense
position that the defense had a constitutional right to
disclosure of the sealed documents at issue at the
secret hearing in order to prepare his defense. The
OCCA refused to unseal the documents related to the
hearing, and they remain sealed to this day. Appx C.
Finally, the defense argued that the documents and
testimony at the secret hearing pertained to complex
scientific testimony of DNA analysis, and therefore
disclosure to the defense DNA expert for review and
analysis was crucial in order to support a claim of
ineffective assistance of trial counsel and for
supplementation of the record with extra-record facts
pursuant to the Rules of the Oklahoma Court of

11
Criminal Appeals. The defense sought to disclose the
material to Dr. Michael J. Spence, the defense DNA
expert. This motion was also denied. Id.
The secret hearing is problematic. The district
court judge, who was following a remand order from
the OCCA, relied on state law for the proposition that
the personnel investigation of Elaine Taylor was not for
public disclosure, even in the context of a criminal
prosecution (relying on Ross v. City of Owasso, 389 P.3d
396 (Okla. Civ. App. 2017)). This was an odd ruling, as
argued by defense counsel, because the City of
Oklahoma City had in fact released the “confidential”
personnel records relating to Elaine Taylor to multiple
outside state agencies.
What happened on appeal was even more
problematic. Holtzclaw raised a claim of ineffective
assistance of counsel for failing to, inter alia, present
available expert testimony concerning the DNA
evidence. The State responded and relied, in part, on
the secret order issued by the district court after the
secret meeting, making it impossible for the defense to
respond in a meaningful manner, and also allowing the
State the unfair litigation advantage to pre-litigate the
issue, obtain a favorable one-sided ruling in the district
court, and then use that finding in the OCCA which the
defense had neither the opportunity or ability to
contest or explain.
Moreover, there was prejudice because the jury was
affirmatively misled about the DNA evidence and
testimony that was presented–in the form of the
forensic analyst Taylor telling the jury that Holtzclaw’s
DNA was not present on his pants which supported the

12
presence of vaginal fluid–and the prosecutor telling the
jury during closing argument that it was a “fact” that
the DNA found on the fly of Holtzclaw’s pants
transferred in vaginal fluids was from the vaginal walls
of complaining witness A.G. The problem with this
argument is that DNA science cannot reach such
conclusions; and in fact, the evidence is more consistent
with a passive transfer of non-intimate DNA from
A.G.’s purse to Holtzclaw’s pants as no stains or
deposits were observed on the fly of the pants.
This is especially so in light of the concession of the
State’s expert, Elaine Taylor, that she could not say
how the DNA of A.G. ended up on Holtzclaw’s pants,
and that she could not “disagree with” the possibility
that it could have been a secondary transfer from the
purse when he searched it. Even worse, and contrary
to the testimony of Taylor, the DNA of Holtzclaw
himself could not have been excluded from any of the
DNA samples obtained from the fly of his uniform
pants; and the quantification of the DNA of A.G. from
the swabs from the fly of the pants was very low,
indicating that secondary transfer was much more
likely than direct sexual contact.
At trial, Taylor used her false testimony that
Holtzclaw’s DNA was absent to argue that it was a
“very good possibility” that the female DNA transferred
in a liquid such as vaginal fluid; and the prosecutor
repeatedly elicited this false testimony that Holtzclaw’s
own DNA was not found on his pants.
Despite all of this, the OCCA refused to consider
any argument regarding the secret hearing or to
supplement the record with the affidavit of the defense

13
DNA expert to support the claim of ineffective
assistance of counsel. The OCCA dismissed the secret
hearings in a footnote, concluding that nothing in those
hearings was relevant to any issue on appeal. Appx A
at 37 n. 7.
In one sense, the OCCA has not issued any
meaningful opinion at all on the secret hearings,
choosing instead to deem them irrelevant; and the one
legal error that it found–the exclusion of defense
counsel from the process–harmless error.
But the record in this case suggests guidance from
this Court is necessary. The state district court refused
to divulge any of the information from the secret
hearing to the defense under the standard in Giglio v.
United States, 405 U.S. 150 (1972), which requires
reversal of a conviction based upon false or misleading
testimony if such evidence could in any reasonable
likelihood have affected the judgment of the jury.
Counsel for Holtzclaw pointed out that this Giglio
standard is an appellate standard used to determine
prejudice of a trial that has occurred; whereas counsel
at that time was claiming entitlement to new
information that might be exculpatory or beneficial to
the accused, which would seem to be governed by the
standard of Brady v. Maryland, 373 U.S. 83 (1963)
requiring disclosure of information favorable to the
accused. See United States v. Sudikoff, 36 F.Supp.2d
1196, 1199 (C.D. Cal. 1999) (noting the distinction
between the definitions of materiality that govern
appellate review as opposed to the pre-trial discovery
context).

14
Thus, there is tension in Holtzclaw’s case straight
away regarding the correct legal standard that applies
to the information generated at the secret hearing: does
the Giglio standard govern disclosure to the defense, or
the more relaxed Brady standard? This is a question
for this Court to answer.
Holtzclaw also detects a more fundamental issue in
his case because it involves complicated DNA science,
and the inherent opportunity for manipulation and
misleading of the jury by the representatives of the
State, which happened in this case. Holtzclaw asserts
that scientific evidence is different, and deserves
special attention in the courts below.
Texas death row inmate Rodney Reed has raised a
similar issue in this Court in a Petition for Certiorari
filed September 26, 2019. See Reed v. Texas, No. 19411. Reed observed that the standard under Giglio, as
understood by this Court in Napue v. Illinois, 360 U.S.
264 (1959), traditionally requires some level of
knowledge by the prosecutor that the testimony is
false.
However, the question has arisen whether the
Napue standard applies to claims concerning the use by
the State of scientifically invalid expert testimony, as
was done in Holtzclaw’s case. In Longus v. United
States, 52 A.3d 836 (D.C. 2012), the court held that the
Napue standard does apply in these situations. See
also United States v. Ausby, 916 F.3d 1089 (D.C. Cir.
2019) (government testimony about microscopic hair
comparison was false testimony that amounted a
Napue violation); Jones v. United States, 202 A.3d 1154

15
(D.C. 2019) (FBI examiner’s testimony statements
exceeded the bounds of science).
In contrast, the Third Circuit and the Ninth Circuit
appear to analyze Due Process claims involving invalid
scientific evidence and testimony utilizing a more
general fundamental fairness test. In Han Tak Lee v.
Houtzdale SCI, 798 F.3d 159 (3rd Cir. 2015), the court
held that admission of fire expert testimony
undermined the fundamental fairness of the trial. See
also Giminez v. Ochoa, 821 F.3d 1136 (9th Cir. 2016)
(Due Process violated where introduction of flawed
expert testimony undermined the fundamental fairness
of the entire trial).
Holtzclaw, like Reed, asserts that the Napue
standard better reflects the uniquely prejudicial impact
that faulty scientific evidence has on lay jurors, and is
thus the proper standard to review such errors. This
Court should grant review to resolve the tension in the
lower courts of appeals on the proper legal analysis of
claims involving complex scientific evidence that is
misrepresented by the prosecutor at trial and forbidden
from being subjected, on appeal, to a fully adversarial
process involving scientists able to explain the severity
of forensic science errors at the heart of the convictions.

16
II.
THIS COURT SHOULD ACCEPT THIS
CASE IN ORDER TO ESTABLISH THE
LEGAL STANDARD FOR EXAMINING
IMPROPER JOINDER IN EXTREME
CASES LIKE THIS ONE WHERE THE
STATE WAS ABLE TO PRESENT TO THE
JURY EVIDENCE AND TESTIMONY FROM
THIRTEEN COMPLAINING WITNESSES
ALLEGING THIRTY-SIX CRIMINAL ACTS.
Holtzclaw’s case is emblematic of numerous cases of
mass sexual assault allegations against targeted
individuals. The lower courts need direction on how to
prevent the accused from being prejudice from
improper joinder of offenses, as Holtzclaw was in this
case, by the sheer number of disparate allegations of
which lead the public and the courts to conclude,
erroneously, that the accused is guilty of at least some
of the charges.
As the First Circuit has observed, one of the
dangers of joining offenses with a disparity of evidence
is that the State may be joining a strong evidentiary
case with a weaker one in the hope that an overlapping
consideration of the evidence will lead to a conviction
on all counts. United States v. Clayton, 450 F.2d 16, 19
(1st Cir. 1971). This was clearly the State’s plan in
Holtzclaw’s case, and it worked.
The Oklahoma Court of Criminal Appeals found no
error, concluding that Holtzclaw as charged with
similar crimes, all occurring in a particular section of
northeast Oklahoma City, over a span of just over six

17
months. Appx. A at ¶ 20. The court also rejected
Holtzclaw’s assertion that joinder of all counts denied
him a fair trial. Id. ¶ 22. The court reached this
conclusion despite the fact that “the prosecutors
repeatedly referred to the victims’ testimony as a
whole.” Id.
The court cited the fact that jurors acquitted
Holtzclaw entirely of charges against five of the
complaining witnesses and in part on another two.
According to the OCCA, this was evidence that the jury
considered the counts individually and carefully;
however, Holtzclaw asserts that the admonition of the
First Circuit in Clayton bears repeating here and
applies: what the State really did is join weak cases
with ones slightly less weak in the hope of convicting
on all of them.
In addition, there is overlap with the DNA evidence.
The OCCA concluded that the DNA evidence impacted
only the allegations made by A.G., and had no bearing
on the counts associated with other complaining
witnesses. Appx. A at ¶ 45. Holtzclaw is skeptical that
this can be so. The OCCA ignored the disparity of
evidence by failing to recognize that DNA evidence is
given disproportionate weight by jurors.
In addition, after the trial, jurors told the press that
the DNA evidence was highly influential not only with
regard to the allegations made by A.G., but with regard
to the allegations made by the other complainants.
Remember that Holtzclaw was a police officer on
patrol. He patrolled the area where the complainants
worked and lived. There was thus substantial evidence

18
corroborating his contact with these women as part of
his job. This is not surprising because detectives
acquired the identities of ten of the complainants by
using the police department records of Holtzclaw’s
whereabouts during his shifts, and to procure
allegations specifically from at-risk African-American
women, most with significant criminal histories. As
explained by appellate counsel, “[T]he alleged victims
did not, in most cases, come forward of their own
volition, but rather did so only after they were sought
out, interrogated, and in some cases, badgered by police
detectives on a mission.”
Except for the DNA evidence involving A.G., the
other allegations were supported by nothing more than
the bare testimony of the complaining witnesses–most
of whom were addicted to drugs, and had criminal
records including crimes involving deceit and
dishonesty.
It strains credulity to believe that the State would
have obtained the convictions that it did had the cases
not been joined. As Holtzclaw argued below, the State
was able to bootstrap poorly supported accusations
with those of more credible witnesses and
evidence–and especially the DNA evidence in one case.
As outlined, supra, the prosecutor took liberties
with the DNA evidence by telling the jury that the
swab from the fly of Holtzclaw’s pants was from
vaginal fluid from A.G.–even though DNA science
cannot prove that; and in fact shows that it was more
likely a non-intimate transfer from Holtzclaw’s
interaction with her and handling her purse as he
searched it. The defense presented an affidavit on

19
appeal by its DNA expert, Dr. Spence, that sets forth
how the jury was misled fundamentally by the
statements and misstatements of the prosecutor and
the State’s forensic expert about the DNA evidence.
Another example is that the State’s expert, Elaine
Taylor, testified that the swabs from Holtzclaw’s pants
excluded him as a donor. This was false because the
DNA data were inconclusive on this point, and even the
OCCA recognized that Taylor “may have either
misinterpreted or misstated her own findings regarding
the possible presence of male DNA as a contributor to
the DNA samples found on the different pant swabs.”
Appx. A at 46. The prosecution then used this false
claim to argue to the jury unscientifically in favor of
the presence of vaginal fluid on the fly of Holtzclaw’s
pants, on which nothing suspicious was observed by
Taylor.
Another fundamental problem is that the
Information (the accusatory document) joined
dissimilar counts, some of which were not sexual in
nature (burglary and stalking). Thus, it is clear that
joinder here was improper, the real question is whether
there was prejudice.
This Court has held that in order to establish
prejudice, “a defendant must point to a ‘specific trial
right’ that was compromised or show the jury was
‘prevented...from making a reliable judgment about
guilt or innocence.” Zafiro v. United States, 506 U.S.
534, 539 (1993); see also United States v. Pursley, 474
F.3d 757, 766 (10 th Cir. 2007).

20
Holtzclaw asks this Court to grant review to
consider whether the level of evidentiary presentation
by the State crossed a constitutional threshold.
Thirteen separate complaining witnesses telling the
jury about thirty-six different types of crimes (burglary,
stalking, rape, procuring lewd exhibition, forcible
sodomy), combined with the prosecution’s
misrepresentation of the DNA evidence, must
necessarily have prevented the jury from making a
reliable judgment about guilt or innocence.
Holtzclaw is not aware of a case from this Court
that has granted relief on facts like his case under the
Zafiro standard. Review is proper on this issue to
provide the lower courts a proper constitutional
framework within the Fourteenth Amendment on how
to analyze properly claims of prejudicial joinder
involving multiple claims from multiple complainants.
CONCLUSION
For the reasons stated above, the Petitioner prays
respectfully that a Writ of Certiorari issue to review
the judgment of the Oklahoma Court of Criminal
Appeals.

21
Respectfully submitted,
JAMES L. HANKINS
Counsel of Record
Timberbrooke Business Center
929 N.W. 164th St.
Edmond, Oklahoma 73013
(405) 753-4150
jameshankins@ocdw.com
Counsel for Petitioner
DATED this 30th day of December, 2019

